<html>
<title> - [H.A.S.C. No. 113-34]POST IRAQ AND AFGHANISTAN: CURRENT AND FUTURE ROLES FOR UAS AND THE FISCAL YEAR 2014 BUDGET REQUEST</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 113-34]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON
 
                   POST IRAQ AND AFGHANISTAN: CURRENT AND 
                    FUTURE ROLES FOR UAS AND THE
                    FISCAL YEAR 2014 BUDGET REQUEST

                               __________

                              HEARING HELD

                             APRIL 23, 2013


                                     
[GRAPHIC] [TIFF OMITTED] 

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
80-763                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              MIKE McINTYRE, North Carolina
CHRISTOPHER P. GIBSON, New York      JIM COOPER, Tennessee
JON RUNYAN, New Jersey               JOHN GARAMENDI, California
MARTHA ROBY, Alabama                 RON BARBER, Arizona
PAUL COOK, California                DANIEL B. MAFFEI, New York
JIM BRIDENSTINE, Oklahoma            JOAQUIN CASTRO, Texas
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             WILLIAM L. ENYART, Illinois
MAC THORNBERRY, Texas                PETE P. GALLEGO, Texas
WALTER B. JONES, North Carolina      MARC A. VEASEY, Texas
ROB BISHOP, Utah
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Julie Herbert, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, April 23, 2013, Post Iraq and Afghanistan: Current and 
  Future Roles for UAS and the Fiscal Year 2014 Budget Request...     1

Appendix:

Tuesday, April 23, 2013..........................................    23
                              ----------                              

                        TUESDAY, APRIL 23, 2013
  POST IRAQ AND AFGHANISTAN: CURRENT AND FUTURE ROLES FOR UAS AND THE 
                    FISCAL YEAR 2014 BUDGET REQUEST
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Pennington, Steven, Director, Bases, Ranges, and Airspace, and 
  Acting Executive Director, Department of Defense Policy Board 
  on Federal Aviation, U.S. Air Force............................     6
Tierney, COL Patrick E., USA, Director, Army Aviation, G-3/5/7, 
  U.S. Army......................................................     7
Weatherington, Dyke D., Director, Unmanned Warfare and 
  Intelligence, Surveillance, and Reconnaissance, Department of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    Pennington, Steven...........................................    43
    Tierney, COL Patrick E.......................................    49
    Weatherington, Dyke D........................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Cook.....................................................    57

Questions Submitted by Members Post Hearing:

    Mr. Turner...................................................    61
  POST IRAQ AND AFGHANISTAN: CURRENT AND FUTURE ROLES FOR UAS AND THE 
                    FISCAL YEAR 2014 BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                               Dayton, OH, Tuesday, April 23, 2013.
    The subcommittee met, pursuant to call, at 11:30 a.m., at 
Sinclair Community College, Dayton, Ohio, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
  OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Turner. Good morning. We will call to order the hearing 
of the Tactical Air and Land Forces.
    I am very pleased here as we look at the issue of the 
Department of Defense [DOD] unmanned aerial systems [UAS] 
programs for the fiscal year 2014. And before I begin, I would 
like to recognize the members of the Air and Land Subcommittee.
    I am very pleased to have Chairman Frank LoBiondo with me, 
who represents the Second District of New Jersey. He is not 
only a member of our subcommittee and a member of the Armed 
Services Committee, he is also chairman of the Transportation 
and Infrastructure Committee Subcommittee on Aviation. In 
addition, he has jurisdiction over the FAA [Federal Aviation 
Administration], who is overseeing the test range selection 
process, and he has been a leader in this issue, including 
being the author of the language for the six test sites.
    We worked very closely with him as the National Defense 
Authorization Act came forward and the language that they 
worked on in the Transportation Committee, trying to ensure 
that we had coordination between the Department of Defense, 
where a lot of the resident knowledge is on operations and 
development of UASs and UAVs [unmanned aerial vehicles], and 
the FAA. And then also including NASA [National Aeronautics and 
Space Administration], which has a significant amount of 
expertise. Ensuring that by pulling this collaborative process 
together, we might also then advance the work that is being 
done at Wright-Patterson Air Force Base through this process.
    Also I would like to recognize Brad Wenstrup, who 
represents Ohio's Second Congressional District just south of 
us, eastern Cincinnati and Portsmouth. In addition to being a 
Member of Congress, he is a lieutenant colonel in the Army 
Reserve and served a year of active duty in Iraq, where he was 
chief of surgery with the 344th Combat Support Hospital. He was 
awarded the Bronze Star and Combat Action Badge for his service 
in Iraq.
    He is a fellow member of the Armed Services Committee, and 
obviously, being a Member of Congress from southwest Ohio, I am 
very pleased to have him both on the full committee of the 
Armed Services Committee, our subcommittee, and then here 
today.
    Brad, thank you for being here.
    Dr. Wenstrup. Thank you.
    Mr. Turner. And then, next, we have Congressman Paul Cook, 
who represents the Eighth Congressional District of California. 
He has traveled a long way to be here. He is a retired Marine 
Corps infantry colonel who served in Vietnam. His career 
spanned 26 years and earned him a number of honors, including 
two Purple Hearts and the Bronze Star Medal with Valor device.
    Mr. Cook, thank you for being here, and thank you for your 
contribution on the Armed Services Committee and for advancing 
the issues of UASs and UAVs.
    I want to welcome our panel of witnesses here today. We 
have Mr. Dyke Weatherington, Director, Unmanned Warfare and 
Intelligence, Surveillance, and Reconnaissance. We have Mr. 
Steven Pennington, Director of Bases, Ranges, and Airspace and 
Acting Executive Director for the Department of Defense Policy 
Board on Federal Aviation; and we have Colonel Patrick Tierney, 
Director of Army Aviation.
    Before we begin, I would like to thank Sinclair Community 
College for making this auditorium available to us, and 
especially Steve Johnson, the president of Sinclair. Steve, are 
you here? Steve, if you would stand, I want to recognize you. 
Thank you.
    And also Adam Murka, the director of public information, 
for their efforts to make this hearing possible and all they 
are doing to try to advance UASs and UAVs in our community.
    As most of you here are aware, the Wright Brothers were 
from Dayton, Ohio. They invented flight, and the region has 
excelled in advancing the industry of aerospace ever since. 
Ohio has a long tradition of unmanned systems innovation. The 
world's first unmanned aircraft system, the Kettering Bug, was 
developed here by the Dayton Wright Airplane Company in 1918.
    The international UAS promotional organization, the 
Association for Unmanned Vehicle Systems International, AUVSI, 
was founded here in Dayton in 1972. And much of the research 
and technology that goes in today's UASs was developed right 
here at Wright-Patterson Air Force Base.
    Today, the Dayton region and the State of Ohio strongly 
support the work we do with unmanned systems. Last year, the 
Ohio General Assembly passed a resolution noting that 
``collaborative relationships are well established in Ohio for 
research, development, testing, training, and manufacturing of 
unmanned aerial systems, including universities, manufacturers, 
researchers, workforce developers, the Ohio National Guard, the 
State of Ohio, and military, commercial, and private airspace 
users.''
    Ohio represents a unique and powerful leverage of research 
and development work in UAS integration, building on the Air 
Force Research Laboratory, AFRL, here at Wright-Patterson Air 
Force Base and the NASA Glenn Research Center in Cleveland and 
the extensive Ohio aerospace contractor base.
    Our national laboratories are doing critical work with the 
key enabling technologies to integrate unmanned systems into 
the national airspace, including sense and avoidance technology 
at Air Force Research Labs and secure command and control 
communication technology at NASA Glenn.
    Our institutions of higher education--University of Dayton, 
Wright State University, and our host today, Sinclair Community 
College--are national leaders in research, education, and 
training for unmanned systems. Working together with our 
national laboratories and industry throughout the State and 
Nation, these educational institutions will ensure that Ohio's 
future in unmanned systems is every bit as robust as our rich 
history.
    The unmanned aerial systems, or UAS, conference taking 
place here at Sinclair Community College is timely because 
unmanned aerial systems and their associated sensor 
technologies are moving to the civilian sector. The Federal 
Aviation Administration, or FAA, Modernization and Reform Act 
of 2012 directed the FAA to establish a program to integrate 
unmanned aerial systems into the National Airspace System at 
six test ranges. The designation and operation of test sites 
will be a tool for testing all aspects of UAS integration.
    On February 14th of this year, the FAA issued a screening 
information request, SIR, for proposals to manage these sites. 
Last year, the subcommittee that I chair, the Subcommittee on 
Tactical Air and Land Forces in the House Armed Services 
Committee, introduced legislation that directed the Secretary 
of Defense to collaborate with the FAA and NASA on solutions to 
the challenges of UAS integration with the National Airspace 
System, or NAS, and provide an annual report on the progress 
being made in this area.
    While there are multiple uses for unmanned aerial systems 
in the National Airspace System, the Association for Unmanned 
Vehicle Systems International has recently concluded that over 
100,000 new jobs could be created by 2025 through UAS use, 
primarily in the commercial and civilian market areas of 
precision, agriculture, and public safety.
    The migration of UAS aircraft and sensor technology to the 
civilian sector will provide for greater competition, 
innovations in technology for both civilian and military 
missions, and eventually decrease cost for both the Government 
and private sector. The U.S. military will continue to use 
unmanned aerial systems for intelligence, surveillance, and 
reconnaissance missions, as well as weapons delivery platforms.
    Turning to our subject today, the fiscal year 2014 budget 
request for unmanned aerial systems, the Department of Defense 
plans to invest $2.3 billion for research, development, and 
procurement of unmanned aerial systems. The request for year 
2014, unfortunately, is a decrease of $1.1 billion from the 
request for the fiscal year 2013.
    The administration plans to produce some 234 fewer unmanned 
aerial systems than last year. I have concerns about whether 
this request will meet both the warfighter requirements and the 
emerging technologies and opportunities of UASs and UAVs. I 
hope our witnesses will address this issue today, and we 
welcome their response.
    Without objection, all of the witnesses' prepared 
statements will be included in the hearing record, and we will 
ask each witness to provide an opening remark. And then we will 
have questions from the four Members of Congress who are here.
    We are going to begin with Mr. Weatherington. If you would 
please proceed with your opening statement.

STATEMENT OF DYKE D. WEATHERINGTON, DIRECTOR, UNMANNED WARFARE 
AND INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE, DEPARTMENT 
                           OF DEFENSE

    Mr. Weatherington. Thank you, Mr. Chairman, members of the 
committee, for the opportunity to appear before you today to 
discuss the current Department of Defense unmanned aircraft 
acquisition programs and their role post Iraq and Afghanistan.
    I am also pleased to address the related fiscal year 2014 
President's budget request and the Department's activities 
related to the integration of DOD unmanned aircraft into the 
National Airspace System. I will be brief in order to move 
quickly to your questions.
    I will begin by describing the scope of the Department's 
unmanned aircraft systems activity, both in terms of numbers 
and types of systems fielded and in terms of numbers of hours 
flown. I will then highlight the ongoing 2014 unmanned aircraft 
acquisition programs funded by the President's fiscal year 2014 
budget request and then close with a short summary on the 
ongoing airspace integration efforts that will enable unmanned 
aircraft capabilities for operators and systems returning from 
Iraq and Afghanistan.
    The Department has a number of and operates a wide range of 
unmanned aircraft varying in missions, capability, sizes, and 
performance. The systems also support a wide range of 
warfighter needs. DOD categorizes these aircraft systems into 
five groups based on various capabilities, such as maximum 
takeoff weight, operating altitudes, and speed.
    Group 1 aircraft typically weigh less than 20 pounds and 
fly at altitudes less than 1,200 feet and at speeds less than 
100 knots and typically in the vicinity of the operator. They 
number close to 9,500 aircraft out of the total DOD unmanned 
aircraft inventory of approximately 10,700 aircraft. The hand-
launched Raven is an example of a Group 1 aircraft.
    At the other extreme are Group 5 aircraft that weigh more 
than 1,300 pounds and typically operate at altitudes greater 
than 18,000 feet and typically are operated beyond line of 
sight. The jet-powered Global Hawk, comparable in size to a 
small commercial airliner, operates at altitudes greater than 
55,000 feet. Another Group 5 aircraft is the Air Force Reaper, 
and DOD has about 130 Group 5 aircraft in its current inventory 
today.
    In terms of flight hours, DOD unmanned aircraft have 
amassed over 4 million flight hours in the last 10 years, 
growing from approximately 16,000 hours in 2001 to nearly 
700,000 operational hours in 2011. And these numbers do not 
include the Group 1 systems.
    Flight hours declined to about 550,000 hours in 2012, as 
operations in Iraq completed and those in Afghanistan 
stabilized. Historically, about 80 to 90 percent of all the 
hours flown in DOD are combat-related hours.
    With respect to the role of unmanned aircraft post Iraq and 
Afghanistan, the Department will continue to intelligently 
shape an affordable intelligence, surveillance, and 
reconnaissance, typically known as ISR, capability for our 
unmanned aircraft systems portfolio to meet DOD's requirements. 
Since we cannot predict the future strategic environment and 
how that will develop, we need to maintain a robust ISR 
enterprise capable of supporting the full spectrum of military 
operations anywhere around the world.
    Having more home-based systems will provide a more normal 
training environment, enabling the training pipeline to recover 
from years of high-tempo operations. In all cases, the current 
budgetary climate dictates that we proceed smartly in terms of 
how we acquire and apportion ISR systems, including unmanned, 
to best deal with the evolving strategic environment.
    In the future roles category, unmanned aircraft are likely 
to support many of the operations they do today, including ISR, 
also communications relay, logistics resupply, and providing 
our combat capability of limited strike. DOD's unmanned systems 
portfolio will continue to be based on combatant commanders' 
needs within the current physical environment.
    In terms of the President's 2014 budget, it includes about 
$1.4 billion for unmanned aircraft systems research, 
development, test, and evaluation and about $1.2 billion for 
unmanned aircraft systems procurement. Compared to the fiscal 
year 2013 budget, as the chairman has indicated, this is a 
decrease of about $700 million, or about 34 percent, in 
research, development, test, and evaluation and a little over 
$600 million decrease in procurement.
    The 2014 budget request funds these programs: the Air 
Force's Reaper and Global Hawk Block 40 programs; the Navy's 
Triton, sometimes known as BAMS [broad area maritime 
surveillance]; Fire Scout; the Marine Corps Small Tactical UAS 
program; and the new UCLASS [Unmanned Carrier Launched Airborne 
Surveillance and Strike] Navy program. It also funds the 
completion of the Army's Gray Eagle program and also funds the 
multi-service small hand-launched Group 1 systems of which 
there are several platforms.
    The budget also funds the U.S. commitments to the NATO 
[North Atlantic Treaty Organization] Alliance Ground System, or 
AGS, and sustains and improves the fielded capability the Air 
Force has in Predator and the Army and Marine Corps Shadow 
systems.
    From an airspace integration perspective, DOD has been 
working this challenge for a long period of time, and our long-
term goal is to provide routine safe access to the National 
Airspace System for properly equipped DOD aircraft. The 
Department's Unmanned Aircraft Systems Integration Plan 
provides an overview of how the Department plans to accomplish 
this goal incrementally and is available online to the public.
    The Department's Unmanned Aircraft Systems Task Force is 
the DOD advocate for shaping regulatory policy, procedures, and 
certification standards and technology development activities 
that are critical to the integration of DOD unmanned aircraft 
into the national airspace. Task force leadership and 
participation with the DOD Policy Board for Federal Aviation 
also serves as a congressionally directed multi-agency Unmanned 
Aircraft Systems Executive Committee, known as the ExCom. The 
ExCom's goal is to coordinate and align airspace integration 
efforts among FAA, DHS [Department of Homeland Security], DOD, 
and NASA.
    In October 2010, the Executive Committee developed and 
provided to the congressional committees a National Airspace 
Access Plan for Federal Public Unmanned Aircraft Systems, which 
identified needs, challenges, and an incremental approach to 
meeting these challenges. The plan also provides specific 
recommendations in the areas of policy, regulation, and 
technology.
    With that, I will conclude. I thank you for your support, 
and at this time, I will be happy to answer any questions.
    [The prepared statement of Mr. Weatherington can be found 
in the Appendix on page 27.]

 STATEMENT OF STEVEN PENNINGTON, DIRECTOR, BASES, RANGES, AND 
AIRSPACE, AND ACTING EXECUTIVE DIRECTOR, DEPARTMENT OF DEFENSE 
        POLICY BOARD ON FEDERAL AVIATION, U.S. AIR FORCE

    Mr. Pennington. Thanks for having my written testimony put 
into the record. I would like to just highlight two things and 
get onto the questioning sooner.
    First, to the entire group of congressmen here, but 
particularly Congressmen Turner and LoBiondo, the 2012 NDAA and 
FAA reauthorization were very, very helpful to encouraging 
multiple defense--multiple agencies to work together to advance 
UAS integration in the NAS. And so, we are working closely, as 
you all know, with our partners in the FAA. They are the lead 
for the U.S. test sites. We are working closely to make sure 
they understand the defense equities.
    AFRL [Air Force Research Laboratory] is in the room today. 
We are continuing collaboration between AFRL and the Tech 
Center and various other FAA centers to, in fact, move research 
and development from various centers, whether it is DOD or 
whether it is FAA, back and forth.
    The final thing I would like to highlight is that DOD has a 
long history of building advanced capabilities and not just 
doing the R&D [research and development], which is certainly 
very important, but also building the training pipelines and 
then the ops procedures. So what we refer to that as is 
airworthiness certification for the aircraft. So DOD has an 
airworthiness certification capability that we do for all 
aircraft, including UAS, including small UAS.
    Likewise, we have a pilot training standard. In the civil 
parlance, it would be referred to as licensing. So we train 
pilots and operators based upon the type of UASs they fly.
    And then the final piece is we have developed operational 
procedures. So whether you are flying in the NAS or you are 
flying in Afghanistan or formerly in Iraq, we have developed 
operational procedures in the terminal area, arrivals and 
departures, and an en route system.
    We believe this body of information, from the far end at 
research and development all the way to operational procedures, 
could be very, very helpful to our FAA partners in building 
civil standards for airworthiness, civil standards for pilot 
licensing, and then, of course, ops procedures for use in the 
NAS.
    So, again, I look forward to your questions, and I will 
turn it over to Colonel Tierney.
    [The prepared statement of Mr. Pennington can be found in 
the Appendix on page 43.]

   STATEMENT OF COL PATRICK E. TIERNEY, USA, DIRECTOR, ARMY 
                  AVIATION, G-3/5/7, U.S. ARMY

    Colonel Tierney. Thank you for the invitation to 
participate.
    I have given written testimony for the record, and in order 
to save time, I will forego reading and presenting it and get 
right to your questions.
    Thanks.
    [The prepared statement of Colonel Tierney can be found in 
the Appendix on page 49.]
    Mr. Turner. Thank you.
    In almost all of your comments, you touched on some of the 
areas that we are interested in and I know that participants in 
the conference are interested in.
    Mr. Pennington, I am going to begin with you. Thank you for 
referencing the negotiations and the discussions between DOD 
and the FAA, and I am going to ask you a question about the 
status of the negotiations.
    I also then, Mr. Weatherington, I am going to ask you about 
the issue of that cooperative relationship that the Armed 
Services Committee has tried to encourage--in other words, 
require----
    [Laughter.]
    Mr. Turner [continuing]. Between the FAA, DOD, AFRL, and 
NASA Glenn.
    So starting first with Mr. Pennington, you have been very 
active in this issue, and DOD and the FAA have been negotiating 
for years on UAS operations into the national airspace. Now 
that we have this provision that Mr. LoBiondo had worked so 
diligently on, of the six proposed test sites, what can you 
share with us on the status of those negotiations or any aspect 
of what we may currently know about the process?
    Mr. Pennington. So, sir, as you mentioned, the SIR 
[screening information request] is on the street, and the 
agreement we have with our FAA partners is that when they begin 
actually reviewing the proposals, they will involve DOD. And my 
office will work with Dyke's office and, in fact, all of the 
offices across DOD to make sure that we understand whatever 
equities are involved and then do the best that we can in this 
process to deliver something that is useful to the Nation.
    The only caveat I will give to you, sir, is that, as you 
know, in sequestration, we have challenges. So in the near 
term, I don't know that DOD has any significant material 
assistance we can provide to the test sites. There will 
certainly be potentially in-kind. But the material assistance, 
we simply probably don't have the capability to do it under the 
current sequestration.
    The final piece is we all believe that these test sites 
potentially could be very useful to aiding the FAA in building 
these three pieces, pillars, to civil integration, which is 
airworthiness, pilot licensing, and then, finally, the 
operational procedures.
    Mr. Turner. Thank you.
    And I appreciate you mentioning the effects of 
sequestration. In this committee, we are all very concerned 
also, the personal aspects of those at Wright-Patterson Air 
Force Base who may be facing furloughs.
    As you may be aware, I voted against this mess because I 
was so concerned as to what the effects would be on our 
national security, and we are certainly seeing them in all 
aspects of what we are trying to advance. And I appreciate you 
acknowledging that even in this, there are effects and 
implications.
    Mr. Weatherington, you had mentioned the Executive 
Committee aspect in your overall comments of AFRL, FAA, NASA, 
and DOD. Can you tell me how that cooperative relationship is 
going there? Any difficulties?
    As we look to putting together the National Defense 
Authorization Act for this year, we are going to be looking 
again to encourage--require--this cooperation and some aspect 
of trying to advance UASs in the national airspace with an 
understanding that not only does DOD have a need for operating 
in our domestic airspace, but also has the incredible knowledge 
that could advance us on the civilian and commercial aspects.
    So what insight could you give us about how that 
cooperative relationship is going?
    Mr. Weatherington. Thank you, Chairman Turner, for the 
question.
    At the macro level, I believe and my boss, who is the DOD 
representative at the principal level on the ExCom, would agree 
that we made significant progress in the UAS ExCom. We have 
been working it about 4 years now. Initially, we started out at 
basically the tactical level, working procedural activities 
that would improve DOD, DHS, and NASA access to the NAS. That 
is really improving the COA [certificate of authorization] 
process, as you indicated in your opening remarks.
    Since that time, we have addressed a number of those issues 
and improved that process, and now we are moving on to more 
substantial activities that, from my perspective, both help DOD 
and the other Federal public users, but also, as Mr. Pennington 
alluded to, provide a framework then to move on to a wider 
consumer base for unmanned aircraft systems.
    Specifically in that is addressing the see and avoid, sense 
and avoid capability that is articulated in 91-113. We are 
working that right now very heavily within the ExCom, 
developing short-,
mid-, and long-term solution sets that support primarily again 
the Federal public user base, but also provide a long-term 
strategy for a broader user set.
    Also, to amplify on Steve's answer to your previous 
question, in developing the plan for the test sites, FAA came 
to DOD and asked us for expertise first in the development of 
the contract that they would use for that. And so, DOD provided 
contract expertise from actually the DARPA [Defense Advanced 
Research Projects Agency] organization for the type of contract 
they were going to use.
    Since that time, FAA has identified specific skill sets 
that would be beneficial in the evaluation of those proposals. 
And so, DOD is working those particular skill sets at an 
individual level name that we can provide to help FAA more 
adequately address those proposals when they come in.
    Mr. Turner. Thank you, both.
    I want to again thank the other three Members for both 
their leadership on this issue and their partnership, and for 
their being here today. I think it certainly shows the long-
term interest that Members of Congress have and that our 
committee has on how this process is going to go.
    And with that, I want to recognize Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I am very pleased to have the opportunity to be here today. 
I want to thank our panel and my colleagues for joining us and 
you, Mike, for calling this hearing.
    Also thank you for your expertise, your dedication and 
commitment to all things DOD, but especially in this particular 
area, where there is exciting new program that is getting ready 
to get off the ground.
    I represent the Federal Aviation Administration Technical 
Center in Atlantic City, which is the premier facility in the 
Nation for safety and security research and development. So I 
have a pretty vested interest in all of this. They have been 
designated to do all the validation for the next generation of 
air traffic control, and this is kind of a natural fold-in to 
that.
    So we also have at that campus complex the 177th Fighter 
Wing, and attached to that is the Warren Grove Range. Mr. 
Pennington, the Warren Grove Range offers a tremendous amount 
of land area and airspace that is being utilized by the FAA 
Tech Center for their ScanEagle flight demonstrations.
    Do you know if there are any plans for the Air Force to 
expand the UAS flight operations into Warren Grove? And if not, 
is that something you and your team would consider looking at 
for an official position?
    Mr. Pennington. Sir, if the 177th and the FAA desire to do 
such, they will bring it back through Headquarters Air Force, 
and we will work it relatively quickly. As you know, there has 
been--this is a long-term presence of the fighter wing that has 
been there and then, secondly, of the range. And my 
organization, as you know, also oversees the range.
    But yes, sir, we would quickly look into it.
    Mr. LoBiondo. Thank you.
    Secondly, also Mr. Pennington, as you are aware, the 
upcoming FAA designations of the six UAS test sites are 
supposed to be coordinated with NextGen, among other 
requirements. Do you have any idea or can you tell us what the 
Air Force is currently undertaking to integrate NextGen into 
the UAS research and development and operations?
    Mr. Pennington. So, sir, yes. We have Jack Blackhurst here. 
We also have Paul Schaeffer. We are working very, very closely 
with the FAA NextGen office and looking at the technologies, 
starting with ADSB, automatic dependent surveillance-broadcast, 
out. And there is a series of efforts inside of DOD looking at 
miniaturizing ADSB transceivers and seeing if we can fit them 
onto UASs, sir.
    Mr. LoBiondo. And can you say if there are any best 
practices that the FAA should be talking to DOD about when 
figuring out how these test sites should be accomplished and 
everything put together? I am assuming that those conversations 
are already happening. At least I hope they are.
    Mr. Pennington. Yes, sir. As Dyke mentioned, we have been 
having those conversations from the very beginning when we 
received the test site language in both agencies. We have been 
discussing a criterias-based approach and then letting the test 
sites be incubators for the three things that I talked about 
earlier--airworthiness, pilot licensing and training, and also 
ops procedures to facilitate the creation of a civil market.
    And then we believe that it would also help DOD in 
providing a broader access to the NAS.
    Mr. LoBiondo. Thank you.
    Mr. Weatherington, as chairing the Aviation Subcommittee 
under Transportation and Infrastructure, our subcommittee will 
be taking an in-depth look at UAS integration into the National 
Airspace System over the coming months. I think you can see 
that from today's hearing, there will be a lot of interest in 
moving forward from a lot of different areas.
    I wanted to get your opinions on what you think the biggest 
obstacles our FAA partners should focus on to make this happen 
safely? And secondly, what do you think would be the greatest 
gains for the general public with this?
    Mr. Weatherington. Sure, sir. So from a DOD perspective, I 
can tell you probably the biggest single challenge that we see 
in airspace integration is defining an alternate means of 
compliance for the see and avoid capability.
    FAA recently indicated that their current position on see 
and avoid is that can only be accomplished by a human on the 
aircraft, in the aircraft, and so there is no other way to 
provide that capability, which forces DOD and, frankly, all the 
other users into the COA process.
    Today, the COA process is working pretty good. As I 
indicated, we made some process changes within FAA, and that 
has helped a lot. But eventually, DOD's position is we have got 
to move beyond the COA process.
    To do that, we have to reach agreement with FAA on how we 
meet a see and avoid capability. So that is that short-, 
medium-, and long-term process that I mentioned before.
    Recently, DOD certified its first see and avoid capability 
in the ground-based method of operation at Cherry Point Marine 
Corps station. We are working with FAA for them to acknowledge 
that certification and allow us to use that under a COA 
process. The Air Force will probably follow that lead with 
their own ground-based system, probably at Cannon Air Force 
Base, and then the Army will follow them.
    So this solution for see and avoid is really upon us right 
now. DOD and the other Federal public agencies have some 
flexibility because we--as Mr. Pennington indicated, we have 
the ability to self-certify. But ultimately, it is FAA that 
will ultimately make the decision if that system is safe to 
operate in the NAS. And so, that is the challenge we have in 
the short term.
    Mr. LoBiondo. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Turner. Thank you.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chair.
    In reading the background material, I was concerned about 
the number of mishaps. And if I understand it correctly, the 
trend on this is going down more and more and more. And so, I 
am trying to get some insight into this, and I don't want to 
say pilot error, but I guess it is a pilot because they got the 
joystick, or operator error.
    I am very concerned about that, on how we can--you know, if 
we are going to budget all of these platforms in the future, 
and it is a very expensive, some of them are very expensive 
pieces of gear. If you could kind of address the issue of 
accidents, whether it is pilot error, operator error, or how 
vulnerable they are to enemy action, such as even machine gun 
fire?
    You don't have to go into SAMs [Standard Army Maintenance]. 
I think everybody knows that, but if you can address that, I 
would appreciate it.
    Mr. Weatherington. Yes, sir. So the good news is, much like 
almost any other aircraft system that DOD develops, the 
accident rate for the entire class of unmanned aircraft systems 
has been following a very predictable trend downward.
    And as a follow-up to this, I can provide you data that 
indicates that, for example, today the aircraft Class A rate, 
which is a whole loss or an accident that results in fatality, 
for the Air Force unmanned aircraft system portfolio is about 5 
per 100,000 flight hours. Five years ago, it was about 20 per 
100,000 flight hours.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Weatherington. So the trend has been down. Last year, 
it was about 6.5. So the trend continues to fall. And if you 
lay that curve on top of other curves for other kinds of 
aircraft, the slope of the curve is almost identical.
    Now the comparison for all Air Force aircraft, the loss 
rate is about--Class A rate is about 1 per 100,000. So unmanned 
aircraft are still higher than the total aircraft loss rate. 
But when you compare the types of aircraft that the Air Force 
is flying, they line up much better with the construction and 
the operation that you would find in general aviation aircraft.
    If you look at the general aviation loss rate, that rate 
over the last 3 or 4 years runs between 5 and 7 or 8 per 
100,000 aircraft. So from a DOD perspective, we believe that 
the loss rate is going to continue to reduce. We believe that 
we are on a good trend.
    As to the specific reasons for those loss rates, it is 
spread about equally between equipment failures, like loss of 
an engine--in fact, the last Air Force loss they had was a 
Predator in theater that had an engine failure--and pilot 
error. And DOD is working both of those activities through a 
number of research and development activities. Many of them 
have gained significant success.
    Colonel Tierney likely will tell you that the Army on its 
Gray Eagle program about 3 years ago instituted an auto-land 
system on their Gray Eagle programs, automates the landing and 
takeoff of that system. And that significantly reduced the loss 
rate we saw in that class of systems, compared to what we were 
doing before.
    Mr. Cook. Thank you.
    I appreciate that. I just wanted to also ask about the 
expense cost of the Broad Area Maritime Surveillance units. 
They are twice as much as the ones that are going to be ordered 
for the Navy/Marine Corps than the Air Force. I think they are 
twice as much. Wasn't it $22 million as opposed to going up to 
$50 million something?
    And I understand the bells and whistles and everything like 
that, but it just seems like that is a pretty steep change on 
something. If you could address that?
    By the way, you might want to get rid of that acronym. That 
has been around a long while, and it wasn't very complimentary 
to some people. So always beware of acronyms. As somebody in 
the Marine Corps a long time, that is--I kind of hate them, if 
you haven't figured that out.
    Mr. Weatherington. So the BAMS program is--now the Navy 
refers to that as the Triton program. It is a derivative of the 
Global Hawk platform that the Air Force currently flies.
    The Navy had to make some changes in that platform from a 
sensor perspective because the Navy was operating primarily in 
a maritime environment. They also added some capabilities to 
improve safety.
    So, for example, the BAMS aircraft incorporates lightning 
protection for lightning strike. It incorporates de-icing 
capability, and it improves the redundancy system through the 
triplex system that they have today.
    The cost of the BAMS Triton system actually lines up pretty 
closely with what the Air Force previously paid for their Air 
Force Block 30 program. So we don't see a significant cost 
change between the previous system that DOD was buying in 
Global Hawk and the current BAMS capability.
    Now there are a couple other Navy programs that are on the 
horizon. The UCLASS program, the carrier-based program, is very 
early in the acquisition phase, has not met Milestone A yet. 
And so, we haven't defined that program specifically yet.
    And then the other program is the STUAS [Small Tactical 
Unmanned Aircraft System] program, which currently is for the 
Marine Corps today, which is a small system, a Group 3 system 
that operates off surface combatants.
    Mr. Cook. I am going to show my ignorance here, if I 
haven't already done that. Years ago, in fact, it was the tail 
end of my career, we had the Pioneer, which--and that is 
completely gone now. The Shadow is the next. How effective is 
that in terms of the truck and the launch and everything?
    It kind of seemed primitive when I saw it. Of course, that 
was a number of years ago, and being an infantry type, all this 
stuff, and I certainly appreciate your indulgence in explaining 
this to me. But----
    Mr. Weatherington. Yes, sir. So I could certainly answer 
your question, but I think Colonel Tierney would be much more 
appropriate to answer that question.
    The Marine Corps and the Army operate identical Shadow 
systems in theater today.
    Mr. Cook. Yes, that is what I started with.
    Colonel Tierney. Well, I could add to that, sir, is in 
terms of the Shadow has been extremely effective for the BCTs, 
the brigade combat teams, that organic UAS capability that that 
brigade commander owns and can count on.
    In reference to the launcher, the way that system works is 
it is basically just launched off a catapult. And what is 
really great about that is running a whole airfield that you 
have got helicopters coming in and Air Force aircraft, is it 
really only consumes the--it doesn't consume the runway.
    You can launch it from being the runway. So while aircraft 
are still taking off and landing, that Shadow is continuing to 
take off and then just offset to a much shorter runway. So 
while it looks kind of primitive, it really gives you a great 
capability to launch them anywhere.
    Combined with the system's ability for its automatic 
takeoff, automatic landing--for the Army systems across the 
board, there is no man in the loop on a stick and rudder. 
Everything is automated. If it loses link, it comes back and 
automatically lands, and the operator's input is moving where 
it is by basically a joystick around on a map.
    But specifically, it has been a really effective platform. 
It is relative small, about 400 pounds. It largely just has the 
sensors. There are no weapons on it, but you don't find too 
many BCTs that are executing any combat operations without 
having that thing overhead, especially on objective.
    Mr. Cook. Thank you very much.
    That is all I have.
    Dr. Wenstrup. Yes, thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    Mr. Pennington, I have a question for you. On the domestic 
debate, the question of privacy, of course, comes up. And as I 
understand, the FAA will have responsibility over the 
commercial requirements for that, and I am curious who has the 
responsibility within the military, and what are some of the 
proposals for privacy protection for our citizens?
    Mr. Pennington. So there is--Congressman, a great question. 
In the military, there is a longstanding prohibition, as you 
know, for any gathering of intelligence on Americans in the 
U.S.
    So we have various sensors on manned and unmanned aircraft 
that we use all the time in training. We have very clear 
prohibitions on the utilization of that data for anything other 
than military purposes, which is to train. And likewise, we 
have very clear standards on how you have to maintain the data 
and dispose of it.
    And so, the FAA and then certainly Department of Justice 
and others have got to think through similar questions about 
how we do UAS, private or civil UAS. But I would tell you that 
we have a fair body of law on how we handle airborne aircraft 
currently, whether they are rotary wing or fixed wing and 
whether they are first responders, public, or whether they 
happen to be private vehicles.
    We have a fair body of law that explains what you can and 
cannot do with that data. So I think that might be a useful 
place to start.
    Dr. Wenstrup. Thank you very much.
    Colonel Tierney, the Army is looking into the Gray Eagle as 
unmanned vehicle. How is that different from the Air Force's 
Predator?
    Colonel Tierney. Similar when you look on them, look at 
them out on a ramp. It is really the task and purpose, and then 
there are some design changes. The task and purpose that the 
Army is using its Gray Eagle for is, well, the acronym, RSTA--
reconnaissance, surveillance, and target acquisition. It is 
really the fix and finish capability that is organic to the 
division, the two-star commander formation that basically gives 
his eyes on the battlefield.
    The reason it is different is our philosophy on how we are 
going to fly them and fight them. From a flying perspective, 
the Gray Eagle, again, there is no stick and rudder component 
of a trained pilot that is manning it. It is completely 
automated for takeoff and landing.
    So our operators are all enlisted soldiers that know how to 
operate the ground control station, but we have not run anybody 
through flight training. So our ability to train is--how we 
train is significantly different.
    Also the design is it is not a--while it is GPS [global 
positioning system] capable, we are principally operating on 
line of sight. So either from a satellite-denied environment, 
we simply don't have the signal, that is really not in effect. 
Line of sight is its principal way that it is going to operate. 
So that is two differences.
    And then, lastly, it is the integration into the division. 
I mean, this really for the Army is such a game-changer. 
Really, since GPS navigation and night vision, is the biggest 
leap forward for us that have become so integral to how we 
fight. We could no more go in with a borrowed M-4 than we could 
with a borrowed aircraft.
    So guys counting on that aircraft being overhead is really 
critical, and then the ability to train with that. And perhaps 
later, we can talk more about how we are training our own 
manned fleets, how they are going together.
    But it is the design, the task purpose, how it will be 
used, that makes those differences. And while they all started 
from a joint design, and there is a lot of commonalities in 
terms of how they are working with the ground control station, 
frequency bands, et cetera, that task purpose that is uniquely 
for the Army and for those divisions is why it is different in 
some aspects from the Predator or Reaper.
    Dr. Wenstrup. So it is more adapted for ground missions?
    Colonel Tierney. Absolutely.
    Dr. Wenstrup. Thank you, Colonel.
    Mr. Turner. We will go to our second round.
    Colonel, one of the exciting applications that people 
discuss with UASs and UAVs is manned/unmanned teaming, which 
would expand the breadth of both the pilot's reach and those 
that are working with a deployed system. Could you talk about 
that for a moment and what some of the areas that you see that 
might be gained from that, and how that might evolve as we look 
to what this emerging area of UAVs and UASs?
    Colonel Tierney. Yes, sir. That specific capability is 
probably the biggest game-changer, at least for the Army, how 
that integrates. And what we call that manned/unmanned teaming 
is that partnership between a manned aircraft, let us say an 
Apache attack helicopter, and the unmanned aircraft that is 
overhead. And there is a wide range of abilities that we have 
been able to incorporate.
    From a technical aspect, we have called all the way to 
Level 4 control, but especially in our line-of-sight 
configuration, for example, the front-seater in an Apache can 
take control of the aircraft and move it to get that lag 
between a pilot at a remote station so that he can physically 
take flight control and get it positioned where he needs to.
    The next level is that he can control the sensor so that if 
he sees something, he is trying to instead of relay that from 
person to person, he can control that. So you can see where it 
does exactly what you said, sir. It really extends that pilot's 
reach.
    But what we are finding, the real game-changer that we 
didn't expect is that having--having that Gray Eagle up 
overhead and allow you to husband those more expensive, 
maintenance-intensive airplanes in terms of like an Apache. So 
when you actually need it to go do its job with a 22-hour orbit 
time of a Gray Eagle, it can be over monitoring and then, when 
you need to, bring those attack platforms forwards.
    Recently, within the last 10 months at the national 
training center, the observer controllers' comments were when 
Gray Eagle is overhead, it is not a fair fight. That the guys 
have figured out how to work the system, for example, sitting 
on a ramp 60 kilometers away looking at the image of the--this 
is the Op 4 in a training environment. They are able to see 
where the tanks are located and had a really smart front-seat 
Apache co-pilot gunner, used to be an artilleryman. So we don't 
even need to launch.
    Call the coordinates in--and in this training scenario, 
called the coordinates in and didn't even need to launch. 
Frustrated the observer controllers. They said, well, that is 
cheating. You guys have to launch to actually get--so they 
pulled up 8 kilometers or 6 kilometers within the range of the 
Hellfire missile. And again, never actually saw them with human 
eye but knew where the targets were at.
    And those are the type of changes that are occurring. 
Instead of staying up for hours and hours and putting a man at 
risk either from fatigue, you know, you are flying guys 130, 
140 hours a month, or risk to enemy fire, you can balance that 
and really allow yourself to have those aircraft available from 
the guy on the ground says, ``I need you to get here now with 
weapons,'' that aircraft is always available.
    So that is a couple ways. But from the Army's perspective, 
it is really going to be a game-changer to include reducing the 
number of aircraft that we have to keep up, manned aircraft, up 
and flying day in and day out.
    Mr. Turner. Excellent. Thank you.
    And as we all know, we don't want it to be a fair fight.
    Colonel Tierney. No.
    Mr. Turner. So thank you for that description.
    Colonel Tierney. Yes, sir.
    [Laughter.]
    Mr. Turner. Mr. Pennington, when we talk about trying to 
achieve this cooperation between the FAA and DOD, we do so 
because we know that DOD has been on the lead front of research 
and development, design, application of UAV technology, 
sensors, and technology maturation. They have also, obviously, 
from their utilization of UASs and UAVs been on the forefront 
of acquisition, working with industry to assure that they can 
achieve the end result.
    And then in integration. I mean, when we talk about 
integrating them into our airspace, DOD has already been very 
active in both in foreign application, but also in war zones 
for the integration of multiple layers of both private military 
aircraft that are manned and UAVs and UASs.
    And then, of course, there is the issue of deployment and 
ensuring that the operation, the skills that are necessary for 
operation, that they are developed and utilized. As we try to 
go toward this cooperation, obviously, Air Force Research 
Laboratories are a significant resource that we are trying to 
leverage in this.
    Could you please speak for a moment as to how you can see 
this asset of the Air Force Research Laboratories being 
leveraged through this process of DOD and the integration with 
FAA?
    Mr. Pennington. Congressman, great question. I think there 
are two things, and Dyke touched on one of them. So I will 
spend a little less time on that.
    Sense and avoid is the--there are two critical issues. One 
is sense and avoid. The second one is how you maintain a secure 
link between the aircraft and the ground site. So, in sense and 
avoid, AFRL has been leading the discussion, along with our 
friends in the AFMC [Air Force Materiel Command], LCMC [Life 
Cycle Management Command] in terms of a customer Global Hawk or 
another vehicle for how do we actually do it.
    Do we use EO [electro-optical]? Do we use IR [infrared]? Do 
we use radar? You could use all of them. And then, secondly, 
building an algorithm which would accept these inputs and then 
provide info to the pilot. And then, eventually, as you move 
down the automation and autonomy lane, it also begins to be--it 
provides it directly into the aircraft and notifies the air 
traffic system that it needs to turn right or left or climb or 
descend to avoid a potential collision.
    So sense and avoid is the first key piece. The second key 
piece is the fact that we have the aircraft displaced from the 
cockpit, which is on the ground, which is referred to as the 
ground control station. So we must make sure that we utilize 
what DOD, and particularly, it has been AFRL, along with Rome 
Labs, in looking at information integrity, assurance, and 
security.
    And the same applies, as you know, or you have seen a 
couple articles in the last weeks about potential 
vulnerabilities of current aircraft avionic suites to what is 
referred to as hacking or cyber attacks. Certainly, a GCS 
[ground control station] that is separated from the aircraft, 
like we do in the UASs, is something that we must pay attention 
to this issue of information integrity assurance and security.
    Mr. Turner. And then, for each of you, this is a budgetary 
hearing. How is it that we can look forward to 2014 and our 
budgetary priorities and the emerging opportunities of UASs and 
UAVs. So I am going to ask each of you, if you will, to provide 
us a commercial of what are we underfunding?
    As you look to overall what is available, what the 
opportunities are, what are we missing? What is an area that 
perhaps we need to pay better attention to that might have 
incredible opportunities for us?
    I will start with Mr. Weatherington.
    Mr. Weatherington. Chairman Turner, you have heard this 
before, but I will say the number-one risk to the DOD unmanned 
aircraft portfolio and probably ISR in general is the budgetary 
uncertainty that DOD currently faces. We are facing that 
certainly in fiscal year 2013 with working the sequestration.
    As you are well aware, the 2014 budget was delivered, but 
there is still a big question mark as to what that budget will 
actually end up being. And so, there is very much uncertainty 
in many program managers' minds as to what resources they are 
actually going to have in 2013 and 2014.
    Unfortunately, that leads us to be conservative, and in the 
short term, DOD is forced to make some decisions that in the 
long term probably aren't in the best interests of the 
Department, but we have no other alternative.
    So the major improvement we could make is stabilizing the 
budget, whatever that is. Then DOD could do a much better job 
of doing its long-term planning for whatever that budget will 
support.
    The next step is the threat continues to evolve. You can 
pick up a newspaper almost any day and hear about some new 
activity somewhere around the world. It is very much different 
than when I was in a blue uniform, and we kind of knew who the 
bad guy was. And virtually all of our resources were dedicated 
against that threat, and we had a really good idea what the 
fight was going to be and where it was going to be and how we 
were going to fight it.
    Today, we have a much more diverse threat, and that 
presents DOD some significant challenges, both in what the 
specific capabilities we are to address that threat and how 
much of each kind of capability we can afford. In the building 
today, we are going through a significant reevaluation of the 
Department's long-term strategy and how ISR supports those 
various mission capabilities that we have to execute.
    In the short term, you see that reflected a little bit in 
the fiscal year 2014 budget, the President's budget request, 
because we are still trying to figure that out. So I am sorry I 
can't be more specific than that.
    In terms of unmanned aircraft systems specifically, I would 
articulate that the systems we have designed are going to be 
around for a long time. We built in a lot of flexibility into 
these systems. Someone mentioned earlier in the conference 
today that we are flying 30- and 40-year-old airplanes, and 
unfortunately, that is true.
    The advantage we have in the unmanned aircraft systems 
portfolio is it is a relatively new and healthy and young 
portfolio, and we have built a lot of investment into it that 
allows us to integrate new capabilities into it very quickly. 
So I find that those systems are going to likely be the most 
adaptable we have.
    The other advantage is they are relatively inexpensive to 
operate, compared to other legacy systems we have. Now have to 
be very careful when we start making comparisons between manned 
systems and unmanned systems because the unmanned systems were 
procured for a specific mission set that in most cases you 
cannot find an equivalent to in the manned world.
    But I will use a simple example. Colonel Tierney mentioned 
Shadow. Previous to the Army having Shadow, the way we did that 
reconnaissance was with a manned rotary-wing asset, you know, 
Kiowa, Blackhawk, and Apache. Those systems, compared to a 
Shadow, are 10 times more expensive to operate than a Shadow.
    Now Shadow doesn't do everything they do, but if what you 
need is risk-to-capability or ISR capability, that is exactly 
what you want to use because you keep those resource-intensive 
assets on the ground, and you save them for when you really 
need to use them.
    Likewise, the Air Force in Predator and Reaper. Those 
systems are relatively inexpensive to operate. Operating costs 
in the $3,000 to $4,000 a flight hour compared to other manned 
systems. And again, not equivalent, but an F-16 is in the 
$25,000 to $30,000 an hour price range.
    So, again, if you can use--if those systems of Predator, 
Reaper are what you need to accomplish a mission and you can 
leave your F-16 parked on the ground, then that is a good thing 
for the Department to do.
    Mr. Turner. Very well said. The issue of uncertainty, both 
through sequestration, the era of repeated continuing 
resolutions, brinksmanship legislative budgeting and spending, 
it certainly has had its significant effects on DOD and the 
industry. We hear it everywhere we go.
    Certainly, Secretary Hagel made that point when he was just 
before our committee. So very well said.
    Mr. Pennington.
    Mr. Pennington. Dyke has laid out very clearly what the 
challenges are. I would like to just focus on some potential 
opportunities, which if we can keep them in the budget I think 
will make both the military public users and the civil users 
better off in the future.
    I talked about sense and avoid. Dyke talked about ground-
based sense and avoid. Ground-based sense and avoid is the 
near-term opportunity certainly for Federal public users, but 
potentially for civil users, to dramatically expand access to 
the National Airspace System.
    So if you have an ASR-11, if you have some other sensor 
that is relatively high resolution with a C-2 system and you go 
through the appropriate testing, in that body of airspace, you 
can begin to fly UASs much more frequently. And that certainly 
is a capability that we in DOD think is very important, but 
also I think that it is going to be something that the test 
sites and other civil proponents in the future will think is 
important.
    Longer term, airborne sense and avoid is the way to go 
certainly for larger aircraft, where you have the size, weight, 
and power available to be able to have that onboard. And a lot 
of that research is going on right here in the Dayton area. So 
that sort of not just research, but also application. Moving it 
into a vehicle is important.
    Now why do I mention that, that it is not just a DOD, but 
it is a civil side? The way to open the civil market is to be 
able to answer what Dyke talked about in see and avoid. Well, 
part of see and avoid, we believe, is that if you can get the 
sense and avoid and you have an agreed-upon certified solution 
set, then civil proponents could work with the FAA and their 
local community and say that this is the radar we have, this is 
the testing we have done of the radar, and this is how it meets 
the standards.
    And within the framework of that, we should begin to 
operate. And then, secondly, airborne sense and avoid, as civil 
proponents begin to put that on their aircraft, it should 
dramatically open up the places that you can use these.
    Why this is incredibly important to DOD is that if that 
happens, there will be a much broader civil market than there 
will be the military market, and the military will be able to 
choose from this competitive civil market, just like we do for 
cars and airplanes today. And we believe that it will be an 
advantage to us. We will have a greater variety of choice.
    Secondly, most likely, the prices will be lower. Thirdly, 
IR&D [independent research and development] will be being done 
by industry primarily, with a little bit of military help, 
where it is the opposite way around right now.
    So if we can kind of keep those sort of things secured in 
the budget, I think we will be better off both on the military 
side and, as Congressman LoBiondo works on his side, on the 
civil side.
    Mr. Turner. Excellent reference to the dividend that this 
will pay.
    Colonel Tierney.
    Colonel Tierney. Sir, can I go down those questions?
    I guess from a fiscal perspective, in the near term for our 
UAS, it is our O&M [operations and management], our operations 
dollars available to operate them. In the Gray Eagle's case, we 
have enough to acquire it, but not enough to fly it, which is 
problematic for an acquisition policy and law. If we can't 
afford to use, we are not allowed to buy it.
    From a research and development perspective, we are kind of 
really at the dawn of this. You can kind of think of jet 
fighters when they first came around, how many iterations went 
by that there is still a lot to learn. And as that budget 
shrinks, it is just less opportunity we have to improve it, to 
really take advantage of what it is capable of.
    From a threat perspective, when we talked about could they 
have been shot down or what are the threats against them is 
really from an enemy, a direct action against us, we are able 
to task organize how we fight to not afford that opportunity, 
either from greater standoff distance of the sensors, by either 
closing with and throwing our smalls at them. So you are 
throwing a mosquito size or relative small UAS, and they are 
trying to swat it with a sledgehammer.
    I think it is not that direct action. The threat we have to 
be concerned about is a network penetration from a cyber attack 
against a UAS system that is well integrated, but basically is 
vulnerable in that regard.
    And the last point, I think that when you said where are 
those opportunities as we transition commercially? I think from 
the Army's perspective, you can see a lot of tactical to 
practical applications--be it civilian like Medevac or 
telemedicine or night vision--that are applied.
    You can see that we are rapidly approaching the ability, 
once the airspace issues are worked out, everything from the 
surveillance missions we are doing on some type of screen line 
look very similar to an oil pipeline, any type of 
infrastructure, those type of techniques. And while you said we 
couldn't necessarily materially support some of the efforts, 
the lessons we have learned, there is already a great history 
of the Army transitioning those lessons back to civilian 
application.
    Mr. Turner. Thank you.
    Turning to Mr. Cook.
    Mr. Cook. Thank you, Mr. Chair.
    Once again, I am going to show my ignorance on this, but 
maybe you can help me through this. And this is on the data 
link, and you kind of alluded to it earlier. I have these 
visions, and I am always looking at the enemy, how they are 
going to counteract this.
    Of course, the old days, it would just be called 
``jamming.'' Now it is much more sophisticated. If you invest, 
if you change the battlefield, where you are going to rely upon 
these systems and not human individuals, but actually how 
reliable or what is the possibility of that being interfered 
with so that they cannot function and carry out their tactical 
missions?
    Colonel Tierney. We are mandated to now everything is the 
TCDL [tactical common data link] or technical. It is 
communication data link is secure. There is no more unsecure 
that can be, in theory, jammed in there without some effort.
    The lost link capability when the aircraft doesn't see what 
signal it is supposed to be, that it doesn't go do what 
somebody says it is to do, it comes home.
    When we did--related to this were the analysis of 
alternatives for the Armed Aerial Scout, the Scout helicopter, 
the OH-58. When we looked at what is its successor, the 
analysis of alternatives showed that it was a combination, 
manned/unmanned teaming. So that we retain the ability to do 
both.
    We can't always presume that we are going to win every 
battle so that the airfield that you lose and the UAVs don't 
have any place to land, that we have kind of thought through 
that. So, specifically, when you say how will we get when that 
battlefield changer occurs, when will be the counteraction to 
that, is we still see that there is that requirement for the 
manned system out there so that we can put the appropriate tool 
for the appropriate task when necessary.
    Mr. Cook. Colonel Tierney, on that same vein, I guess, you 
briefly mentioned cyber threats, cyber attack. Could you 
discuss that a little bit, the risk of a cyber threat as it 
pertains to these systems?
    Colonel Tierney. Well, just like any network system that is 
linked, just what is that penetration capability, penetration 
detection, the penetration defense of any network? And so, for 
example, the feeds, the products that we get back from there, 
like say, for example, full-motion video. But then that is fed 
and distributed out to all the users across the division, the 
brigade combat teams, down to the battalion.
    So that travels along a network. So there is certainly a 
risk there that that could be either interfered with or stolen, 
like any other kind of data.
    There is the other part against what you just said, sir, 
about that where you called it weakening or jamming, that what 
are we doing to protect that? So you can't spoof the aircraft 
and let it think it is the signal it is receiving and basically 
turn it back on it.
    So, again, it is those abilities to encrypt it, to defend 
against it, and then just be aware across a larger spectrum 
with the Army is that how well protected are our networks. And 
as these outliers, these Scout aircraft are on the edge of this 
network, that they are not a vulnerability. We recognize that 
it has to be protected, and it is built that way from the 
ground up, not so much as an afterthought in particular with 
the technical communication data link that is secure to each 
one of those.
    Mr. Cook. Thank you very much, Colonel.
    Mr. Chairman, I yield.
    Mr. Turner. Well, I want to thank each of our panelists--
Mr. Weatherington, Mr. Pennington, Colonel Tierney--not only 
for your being here, but also for your expertise.
    I mean, clearly, this is a very important area for our 
national security and then also for a domestic economic 
opportunity. Your thoughtfulness, your expertise will help us 
make better decisions and ensure that we make the right ones as 
we go forward.
    So also, then thank you for being here today and 
contributing your comments to this forum and for the interest 
that we have in the community.
    I also want to thank then our Members of Congress for being 
here. Frank LoBiondo, Paul Cook, and Brad Wenstrup, thank you 
for being here.
    I wanted to note that there are many initiatives that are 
congressional led versus bureaucracy led or agency led. This is 
one of those. This is one where Congress has stepped in and 
said we need to make a mark here. We need to integrate this 
opportunity. We need to make certain that the parties are 
working together.
    If it had not been for Congress leaning forward on this 
issue, we would still be talking about the prospects of the day 
upon which we begin this process. Instead, by Congress leaning 
forward, we are beginning that process now.
    I want to congratulate Frank LoBiondo for his leadership 
both on the Transportation Committee and the Armed Services 
Committee in bringing those issues together, and I appreciate 
his cooperation and being able to work with him on this 
important issue.
    As we look at the potential for these six test sites, 
another aspect of this which is exciting is learning of all of 
the inherent expertise that we have across the country. People 
have been thinking about this and have been working on these 
issues for a significant period of time, and I think that 
inventiveness, that ingenuity that is going to be unleashed by 
this first step of these test sites will lead us to the day 
where we are not even just in test sites, but we actually look 
at how is this applied across our Nation in our domestic 
airspace and what it has accomplished. And part of that will 
have begun by the information that you provide us today. So I 
appreciate that.
    I also want to thank everyone for participating, and 
certainly the members of our community for their diligence on 
the issue of how then can our region take advantage of the 
assets that we have at Wright-Patterson Air Force Base, the 
engineers and scientists that are here, and the inventive 
spirit of our community and apply it to both our national 
interests in UAS and UAVs, but also for a local economic 
development opportunity.
    And with that, we will be adjourned.
    [Whereupon, at 12:37 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 23, 2013

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 23, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 80763.001
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.002
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.003
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.004
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.005
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.006
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.007
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.008
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.009
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.010
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.011
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.012
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.013
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.014
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.015
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.016
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.017
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.018
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.019
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.020
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.021
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.022
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.023
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.024
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.025
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.026
    
    .eps[GRAPHIC] [TIFF OMITTED] 80763.027
    
.eps?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 23, 2013

=======================================================================

      
               RESPONSE TO QUESTION SUBMITTED BY MR. COOK

    Mr. Weatherington. There are a variety of causes for Unmanned 
Aircraft Systems (UAS) mishaps to include pilot error, equipment 
problems and weather, to name a few of the causes. Essentially, these 
causes are not fundamentally different than those we observe with 
manned aircraft. Consequently, the overall mishap rates between manned 
and unmanned systems are comparable both in terms of the actual numbers 
and the trends.
    According to the Air Force, mishaps that result in damage greater 
than $2M, a destroyed aircraft, or a fatality are referred to as Class 
A mishaps and the Air Force tracks the rate of these mishaps per 
100,000 flight hours. Over the last 10 years, the average annual Class 
A mishaps rate is about 6 unmanned aircraft systems per 100,000 flight 
hours. At this point last year, the Air Force has had 10 Class A 
mishaps, for a rate of about 5.5. To date this year, the Air Force had 
6 Class A mishaps and a corresponding rate drop to 3 mishaps per 
100,000 flight hours.
    Unmanned aircraft system mishap rates continue to trend down. This 
curve mirrors the historical mishap rate for manned aircraft; the slope 
is almost identical. [See page 11.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 23, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Are combatant commands other than CENTCOM asking for 
Wide Area Motion Imagery capabilities to support their missions?
    Mr. Weatherington. In general, many combatant commanders other than 
CENTCOM have recognized the tremendous value in wide-area surveillance 
capabilities in providing persistent visual coverage of large areas of 
interest and improving overall situational awareness of the 
battlefield. Therefore, the Department has seen growing interest in 
obtaining wide-area surveillance capabilities, to include Wide Area 
Motion Imagery.
    Mr. Turner. How would the elimination of funding for the Gorgon 
Stare program affect CENTCOM's ability to conduct operations in FY14 
and beyond, as well as other combatant commands you just identified 
beginning in FY15?
    Mr. Weatherington. The Air Force has provided CENTCOM with required 
Wide Area Motion Imagery (WAMI) capabilities to answer the Wide Area 
Surveillance Joint Urgent Operational Needs (JUON) Statement, which was 
subsequently closed on March 12, 2013. Gorgon Stare Increment 1 
successfully delivered one orbit of WAMI capability (4 sensor pod sets, 
modified MQ-9 aircraft, and ground exploitation component), which 
deployed in 3QFY11 in support of CENTCOM requirements. Gorgon Stare 
Increment 2 completes developmental and operational testing in 4QFY13 
and will be available for immediate fielding. Increment 2 will 
ultimately deliver two additional orbits of WAMI (6 sensor pods sets, 
new modified MQ-9 aircraft, and a new ground exploitation component), 
with significant improvements in sensor resolution and overall field of 
regard. Eliminating Gorgon Stare RDT&E and Procurement funding would 
not impact the Air Force's ability to meet CENTCOM's documented 
requirements or the fully funded Increment 2 enhancements. However, 
eliminating the procurement funding reduces available spares for 
current operations and planned capability enhancements beyond currently 
documented requirements.
    Mr. Turner. A large fraction of the DOD UAS inventory is Group 1 
systems. What are the capabilities these systems provide and why has 
DOD procured such a large number?
    Mr. Weatherington. The Joint UAS CONOPS describes Group 1 UAS as 
weighing less than 20 pounds, normally operated at altitudes below 1200 
feet above-ground-level and at speeds less than 100 nautical miles per 
hour. Group 1 UAS are hand-launched, small aircraft with electro-
optical and infra-red sensors for close-in reconnaissance and 
situational awareness, are man-portable (can be carried in a ruck sack) 
or man-packable (put into the back of a vehicle), and can provide an 
organic (tactical level) lethal strike capability. The systems are 
affordable, have a small footprint, provide the warfighter a critical 
tactical level of ISR capability, require no dedicated manpower, and 
ultimately save lives. All the Military Departments and SOCOM operate 
Group 1 systems, and they are procured off common contracts where 
appropriate.
    Mr. Turner. GAO recently released a report on Reducing 
Fragmentation, Overlap, and Duplication within Government. What is the 
Department doing within the UAS portfolio to gain efficiencies and 
reduce duplication?
    Mr. Weatherington. The Department's goal is to provide the needed 
joint warfighting capabilities in a cost effective and efficient 
manner. Commonality, interoperability, and affordability are key 
attributes considered in the development, procurement, and sustainment 
of affordable and effective UAS capabilities. The Military Departments 
are required to analyze requirements utilizing the Joint Capabilities 
Integration and Development System (JCIDS) process. The JCIDS process 
supports the acquisition process by identifying and assessing 
capability needs and associated performance criteria to be used as the 
basis for acquiring the right capabilities. If these capabilities can 
be achieved through commonality, the Department will choose the common 
approach.
    Mr. Turner. What do unmanned aircraft bring to the table that 
manned aircraft cannot contribute?
    Mr. Weatherington. The capabilities of unmanned systems are not 
unique compared to manned systems. Weapon systems produce effects in 
nearly all domains, independent of being manned or unmanned. It is 
important to highlight there are no requirements for unmanned systems 
within the Joint force, but there are requirements that are better 
fulfilled by unmanned systems. Unmanned systems provide persistence, 
versatility, survivability, and reduced risk to human life, and in many 
cases are the preferred alternatives especially for missions that are 
characterized as dull, dirty, or dangerous. With that mindset, unmanned 
systems are being optimized for these dull, dirty, or dangerous 
missions:
    <bullet>  Dull missions are ideal for unmanned systems because they 
involve long-duration undertakings with mundane tasks that are ill-
suited for manned systems. Good examples are surveillance missions that 
involve prolonged observation. Unmanned systems currently fulfill a 
wide variety of ``dull'' mission sets, and the number will increase in 
all domains as unmanned systems capabilities improve. Unmanned systems 
routinely operate for up to 28 hours on a single mission.
    <bullet>  Dirty missions have the potential to unnecessarily expose 
personnel to hazardous conditions. A primary example is chemical, 
biological, and nuclear detection missions. Unmanned systems can 
perform these dirty missions with no risk of exposure to the operators.
    <bullet>  Dangerous missions involve high risk. With advances in 
capabilities in performance and automation, unmanned systems will 
reduce the exposure risk to personnel by increasingly fulfilling 
capabilities that are inherently dangerous.
    Mr. Turner. How does the cost of UAS and manned aircraft compare 
in: a. Manning b. Total O&M (not just per flight hour)?
    Mr. Weatherington. The Department has conducted a number of 
comparisons of cost between UAS and manned aircraft. While the results 
have been somewhat mixed, there are several findings that have 
persisted in our studies.
    First, capability drives complexity and cost. This theme applies to 
development, procurement, and operating (O&M) costs. In general, more 
capable systems are more complex, take longer to develop, and cost more 
to procure and operate regardless of whether they are manned or 
unmanned. It can be difficult to compare common manned and unmanned 
attributes across platforms, but capabilities-based decisions can still 
be made.
    Second, in most cases, a direct cost comparison between UAS and 
manned aircraft is difficult because the operating environments and 
capabilities are fundamentally different. Using the Global Hawk and U-2 
as an example again, the Global Hawk flies a mission that is three 
times the length of a U-2 mission. Supporting that mission requires 
three full-workday shifts of manpower--significantly more on a per-
sortie basis, but on par from an ``hours on station'' basis.
    That said, manning requirements for UAS are roughly comparable to 
manned aircraft with similar missions and capabilities. Likewise, O&M 
costs for comparable systems are similar with the exception that in 
some cases UAS may require less in flight training hours. We have made 
some initial looks at O&M cost per ``hour on station'', but have found 
those metrics to be inconclusive as they are highly dependent on 
assumptions intended to level the differences between the missions of 
the unmanned and manned systems. For comparison purposes, the 
operational cost per flight hour is $3,725 for MQ-1 Predator and $4,196 
for MQ-9 Reaper, a more capable system.
    Mr. Turner. How does sortie generation of manned and unmanned 
aircraft compare? In figuring total cost to the government, are the 
lower costs of acquiring UAS offset by a higher sortie rate?
    Mr. Weatherington. According to the Air Force, the monthly sortie 
generation rate (sorties per month per unit possessed aircraft) for the 
manned aircraft is 14.3 and for unmanned aircraft is 8.3. However, 
there is no clear comparison of sortie generation rates between manned 
and unmanned aircraft due to the significantly different capabilities 
and missions. Unmanned aircraft focus on long duration, intelligence 
gathering missions supported by professionals who launch, recover, and 
maintain the aircraft and exploit and disseminate the data collected. 
In contrast, most manned aircraft mission sets are rarely set up to be 
purely intelligence gathering missions and provide an entirely 
different capability set including shorter-endurance missions such as 
suppression of enemy air defenses, close air support, interdiction and 
air superiority. Acknowledging the mission differences, in order to 
provide the same duration presence for a given mission, manned aircraft 
would have to generate more sorties than unmanned aircraft. This does 
not necessarily make an unmanned aircraft inherently less expensive 
than manned aircraft, although requiring fewer sorties to accomplish a 
mission can influence cost (scenario- and platform-dependent).
    Mr. Turner. Understanding that UAV missions are often longer 
duration, can you compare operational availability rates?
    Mr. Weatherington. According the Air Force, for Fiscal Year 2013, 
Aircraft Availability (AA) rate for manned aircraft is 66 percent, 
while the AA rate for unmanned aircraft is 78 percent. Specifically, 
the MQ-1 AA rate is 79.8 percent, MQ-9 rate is 80.1 percent, and RQ-4 
rate is 61.4 percent.
    Mr. Turner. Air Force officials have stated that it takes around 
140 personnel to mount an ``unmanned'' Predator mission. How does that 
compare to, say, a comparable F-16 mission?
    Mr. Weatherington. When comparing the required manpower between 
remotely piloted aircraft and F-16s, the differences in mission 
profiles between the systems should be noted. Both the MQ-1/9 and the 
F-16 provide extremely critical and valuable capabilities to our 
warfighters. Unmanned aircraft, such as the Predator, focus on long 
duration, intelligence gathering missions supported by professionals 
who launch, recover, and maintain the aircraft and exploit and 
disseminate the data collected. In contrast, a manned F-16 mission set 
is rarely set up to be purely an intelligence gathering mission and 
provides an entirely different capability set including missions such 
as suppression of enemy air defenses, close air support, interdiction 
and air superiority. In Operation Enduring Freedom for example, the F-
16 flies an approximate 6 hour sortie and is typically tasked to 
directly support ground forces with immediate close air support. The 
Predator is typically tasked with a long duration sortie of nearly 22 
hours, during which an intelligence team continuously exploits mission 
data real-time.
    According to the Air Force, a Predator mission involves 
approximately 140 to 206 personnel, including aircrews, maintenance 
support, and intelligence personnel, to provide a near-continuous 
combat air patrol for a year. Nearly 40 percent of this number of 
personnel is used to process, exploit, and disseminate intelligence 
data. Comparatively, an F-16 squadron deployment (typically 18 
aircraft) includes approximately 400 operations and maintenance 
personnel to support daily operations for a typical deployment of 90-
120 days. However, due to the vastly different missions between the F-
16 and the Predator, there is no accurate methodology to directly 
compare manning requirements.
    Mr. Turner. What types of performance metrics should we be looking 
at to evaluate the cost effectiveness of the different air assets?
    Mr. Weatherington. In general, the metrics the Department uses to 
analyze and evaluate weapons systems fall into three major categories: 
effectiveness metrics, cost metrics, and support/sustainability 
metrics. The specific metrics used, especially when it comes to 
effectiveness, are highly dependent upon the warfighting capability the 
weapon system is intended to satisfy. For example, we would choose to 
look at endurance for an ISR aircraft whereas we may choose to look at 
range and capacity for a cargo or mobility aircraft. There are no 
specific established performance metrics that can be used to directly 
evaluate UAS against manned aircraft for effectiveness or cost 
effectiveness. However, there are consistent themes that show up in our 
analyses that can indicate where UAS are attractive or unattractive for 
a given mission or capability. In general, UAS are attractive 
alternatives in the following cases:
    <bullet>  Complexity is low
    <bullet>  Performance would be limited by physiology (such as long 
endurance, high ``g'', or the presence of chemical, biological or 
nuclear agents)
    <bullet>  Risk/acceptable risk may be high
    In contrast, a manned aircraft solution would be the most 
attractive alternative where:
    <bullet>  Mission is significantly complex (involving inflight 
retasking and/or autonomous decision making)
    <bullet>  The aircraft is intended to carry strategic weapons or 
passengers
    Mr. Turner. Not too long ago, UAS had a much higher accident rate 
than manned aircraft. What is the current safety record of UAS, and how 
does it compare to manned aircraft and aerostats?
    Mr. Weatherington. Mishaps that result in damage greater than $2M, 
a destroyed aircraft, or a fatality are referred to as Class A mishaps 
and we track the rate of these mishaps per 100,000 flight hours. With 
respect to the Air Force, over the last 10 years, the average annual 
Class A mishaps rate is about 6 unmanned aircraft systems per 100,000 
flight hours. At this point last year, we'd had 10 Class A mishaps, for 
a rate of about 5.5. To date this year, we've had 6 Class A mishaps and 
a corresponding rate drop to 3 mishaps per 100,000 flight hours.
    Unmanned aircraft system mishap rates continue to trend down. This 
curve mirrors the historical mishap rate for manned aircraft; the slope 
is almost identical.
    Mr. Turner. Annual procurement of UAS has gone from 1,211 in fiscal 
2012 to 288 last year to just 54 in the proposed FY14 budget. What are 
the procurement plans for future UASs? Does an increase in quantities 
depend for a new generation of capabilities?
    Mr. Weatherington. The Department's FY2014 budget supports a broad 
spectrum of ISR capabilities and largely sustains those systems and 
capabilities acquired over the past 10 years. We have acquired a 
tremendous amount of ISR capability over the past 10 years--the large 
majority of those assets are supporting our current operations in 
Afghanistan. As we draw down, some of those assets will likely be 
reallocated to other needs across the globe, but many of them will 
continue to support the current and evolving counter-terrorism mission.
    For future UAS, the Department already has plans to leverage UAS to 
provide enhanced maritime surveillance capability and to enhance 
aircraft carrier versatility. The MQ-4C Triton will enter operational 
service in 2017 to work as a maritime surveillance asset alongside the 
P-8A Poseidon. Shortly afterwards the Department plans to field the 
initial carrier-based UAS capability with the Unmanned Carrier Launched 
Surveillance and Strike System (UCLASS).
    Future procurement quantities of UAS are always driven by strategy 
and associated requirements for capability and capacity. With that in 
mind, for UAS to remain a valuable tool in the Department's arsenal, we 
need to continue to make progress solving today's tough technical 
challenges: ability to operate in unsegregated airspace, 
communications, and increasing levels of automation and/or autonomy.
    Mr. Turner. Does the procurement goal for UAVs still include a 65-
orbit requirement? With the withdrawal from Afghanistan, on what is 
that requirement based?
    Mr. Weatherington. The Department's Fiscal Year 2014 budget request 
continues to support the achievement of 65 combined MQ-1 and MQ-9 
orbits, otherwise referred to as Combat Air Patrols (CAPS), and based 
on our continuing need to support counterterrorism operations and other 
global requirements for Intelligence, Surveillance, and Reconnaissance 
(ISR). Currently, the vast majority of our CAPS today are in 
Afghanistan, and therefore, there are numerous unfulfilled requirements 
across the globe, awaiting available assets. The Department is 
continuing to assess its ISR requirements post-Afghanistan in light of 
the new defense strategy to determine the required force structure and 
capability for this class of unmanned systems.
    Mr. Turner. How would the elimination of funding for the Gorgon 
Stare program affect CENTCOM's ability to conduct operations in FY14 
and beyond, as well as other combatant commands you just identified 
beginning in FY15?
    Mr. Pennington. The Air Force has already provided CENTCOM with 
required Wide-Area Motion Imagery (WAMI) capabilities to answer the 
Wide Area Surveillance Joint Urgent Operational Needs (JUON) Statement, 
which was consequently closed on 12 March 2013. Gorgon Stare Increment 
1 successfully delivered one orbit of Wide-Area Motion Imagery (WAMI) 
capability (4x sensor pod sets, modified MQ-9 aircraft, and ground 
exploitation component), which deployed in 3QFY11 in support of CENTCOM 
JUON requirements. Gorgon Stare Increment 2 completes developmental and 
operational testing in 4QFY13 and will be available for immediate 
fielding. FY14 President's Budget request freezes the Gorgon Stare 
program at Increment 2 configuration and terminates future RDT&E and 
Procurement funding. The FY14 President's Budget request procures 
Gorgon Stare Increment 2 spares and sustains operation and maintenance 
funding for six Increment 2 pod sets (purchased with FY11 and FY12 
funds) and two ground stations to ensure the capability remains 
available to Combatant Commands and global force management allocation. 
Increment 2 will ultimately deliver two additional orbits of WAMI (6x 
sensor pods sets, new modified MQ-9 aircraft, and a new ground 
exploitation component), with significant improvements in sensor 
resolution and overall field of regard.
    Mr. Turner. DOD and the FAA have been negotiating access for UAS 
into the national airspace system for many years now. Where do 
negotiations stand on that and on the airspace rules for the six 
proposed test sites?
    Mr. Pennington. Through the Department of Defense (DOD) Policy 
Board on Federal Aviation (PBFA) and the Office of the Secretary of 
Defense (OSD) Unmanned Aircraft System (UAS) Task Force, the DOD has 
worked with the Federal Aviation Administration (FAA) to update the 
2007 memorandum of agreement (MOA) between the DOD and FAA on UAS 
operations in the National Airspace System (NAS). The new MOA is 
expected to have final signature approval by the end of June, 2013. The 
MOA simplifies the certificate of authorization process for some 
operations. The DOD and FAA continue to work together through UAS 
Executive Committee working groups to explore other options to increase 
NAS access (e.g. Class D Joint Use working group). The PBFA is also 
engaged with FAA through the Joint Planning and Development Office to 
establish a plan to meet the congressionally mandated 2015 UAS 
integration date.
    While supportive of the test site concept, the DOD is not involved 
in the development of airspace rules in support of the potential test 
sites. The FAA is responsible for the development of test site 
requirements, rules and selection criteria. Questions on the test site 
process should be directed to the FAA.
    Mr. Turner. In evaluating potential test sites and the flight rules 
under which they will operate, are there differences for where and how 
armed UAVs will be operated compared to unarmed systems?
    Mr. Pennington. Department of Defense (DOD) has not been involved 
in the development of evaluation criteria or airspace rules for the 
potential test sites. Questions on the test site process should be 
directed to the Federal Aviation Administration (FAA).
    Regarding operation of armed and unarmed UAVs, DOD and FAA 
previously established procedures for UAS carrying weapons through the 
NAS to conduct weapons training. These flights are from DOD bases to 
ranges authorized for weapons release. The DOD has shared weapons 
carriage safety data and procedures with the FAA. There is no 
distinction within DOD on carriage of weapons between manned and 
unmanned aircraft; the same rigor, discipline, compliance and safety 
precautions are applied.
    Mr. Turner. Are the evaluations of the test sites based on the 
requirements of current UAS technology? How do the requirements next-
generation systems like UCLASS affect the site selection process?
    Mr. Pennington. The Air Force and Department of Defense (DOD) uses 
restricted airspace to support DOD specific UAS technology development 
and testing. DOD has no plans to utilize the Federal Aviation 
Administration's (FAA) test sites for DOD UAS development, testing and 
evaluation requirements at this time.
    The DOD is not involved in the development of evaluation criteria 
for the potential test sites. The FAA is responsible for the 
development of test site requirements. Questions on the test site 
process should be directed to the FAA.
    A DOD representative will serve as an advisor to the Site Selection 
Evaluation Board (SSEB). Our representative will provide technical 
support and to assess proposals for potential impact to military 
installations and test and training operations to include next-gen 
systems to our ranges and Special Use Airspace. DOD fully anticipates 
the FAA will carefully consider negative impacts to military operations 
as well as impacts to private and commercial aviation during the 
selection process. The SSEB makes final decisions on test site 
selection.
    Mr. Turner. Much of the domestic debate over UAV operations centers 
on questions of privacy. The FAA has been charged with considering the 
privacy aspects of commercial UAV operations. Who is responsible for 
developing privacy protections for military UAV operations inside the 
United States?
    Mr. Pennington. For the United States Air Force, oversight of 
privacy protections associated with Unmanned Aircraft System (UAS)/
Remotely Piloted Aircraft (RPA) operations in domestic airspace is 
provided by the Deputy Chief of Staff, Intelligence, Surveillance and 
Reconnaissance; the office of the Air Force Inspector General; and the 
office of the Air Force General Counsel.
    For Department of Defense (DOD) and Air Force ISR missions, privacy 
protections are enumerated by DOD Regulation 5240.1-R and Air Force 
Instruction (AFI) 14-104, which also includes specific guidance for 
UASs:
    ``AFI 14-104, 9.6.2. Air Force Unmanned Aircraft System (UAS) 
operations, exercise and training missions will not conduct 
nonconsensual surveillance on specifically identified US persons, 
unless expressly approved by the Secretary of Defense, consistent with 
US law and regulations. Civil law enforcement agencies, such as the US 
Customs and Border Patrol (CBP), Federal Bureau of Investigation (FBI), 
US Immigration and Customs Enforcement (ICE), and the US Coast Guard, 
will control any such data collected.''
    Mr. Turner. We understand that Gray Eagle recently concluded its 
Initial Operational Test and Evaluation (IOT&E). Can you describe the 
results?
    Colonel Tierney. The Gray Eagle Unmanned Aircraft received an 
effective and suitable finding from Directorate of Operational Test and 
Evaluation. The Gray Eagle-equipped unit was rated effective at 
operating the MQ-1C system and has the potential to provide effective 
support to combat units. During the evaluation the aircraft 
successfully employed Hellfire missiles and demonstrated Level 4 
interoperability with the AH-64E Apache helicopter which were shared 
requirements for both systems IOT&E. The unit also demonstrated its 
ability to meet its operational tempo--three continuous missions while 
maintaining an 81% operational readiness rating, satisfying the 
Sustainment Key Performance Parameter (KPP) requirement of 80 percent. 
The results confirm what we have witnessed in many years of combat that 
the system is appropriate for the Army's needs.
    Mr. Turner. We understand that DOD is investing in Manned Unmanned 
Teaming. What does the Army expect to gain from Manned Unmanned 
Teaming?
    Colonel Tierney. The Army views Manned Unmanned Teaming (MUM-T) as 
more than just a situational awareness tool but as a method of 
maximizing the unique strengths of both our manned and unmanned 
aircraft fleets. Currently, the Army seamlessly moves full motion 
video/data between our Scout/Attack manned aircraft and unmanned 
aircraft. UAS traditionally operate at higher altitudes, with greater 
endurance, multiple mission sensors and often unobserved by the enemy. 
They also can assume more risk in mission execution as no personnel are 
placed in harm's way. In turn our manned Scout/Attack aircraft are 
dynamic, provide the needed lower viewing angle, afford a greater 
lethal presence and have the ability to conduct more detailed 
reconnaissance. The result is an improved overall situational 
awareness, increased survivability for our manned aircraft, greater 
lethality and by reducing the complexity of target acquisition; we are 
able to dramatically reduce the time from acquisition through 
engagement.
    Mr. Turner. The Army is continuing to acquire Grey Eagle UAS, which 
are similar to the Predator. Help us understand why the Army requires a 
different UAS, and why UAS of similar characteristics can't be operated 
as joint assets.
    Colonel Tierney. To support the Ground Commander the Army requires 
a self contained, mobile, armed Unmanned Aircraft System capable of 
operating from austere locations, while not solely reliant on 
satellites for Command and Control. The competitively selected Gray 
Eagle, originally a joint effort between the Army and Air Force, 
incorporates lessons learned from 11 years of combat and leverages 
technology from both the Predator and Reaper programs. Far from 
duplicative, its missions are complementary, addressing capability gaps 
that could not otherwise be effectively closed by a single platform or 
mission. Just like one helicopter is not appropriate for all missions, 
neither is a single UAS. The robustness of the Gray Eagle UAS allows it 
to satisfy requirements for the General Purpose, Military Intelligence 
and Special Operation Forces. While all Aircraft are capable, of these 
three formations both the Military Intelligence and Special Operation 
Gray Eagle will be Joint Allocable through the ISR Global Force 
Management Process.

                                  <all>

</pre></body></html>
